The U.S. International Trade Commission is an independent, nonpartisan, quasi-judicial federal agency
that provides trade expertise to both the legislative and executive branches of government, determines the
impact of imports on U.S. industries, and directs actions against certain unfair trade practices, such as
patent, trademark, and copyright infringement. USITC analysts and economists investigate and publish
reports on U.S. industries and the global trends that affect them. The agency also maintains and publishes
the Harmonized Tariff Schedule of the United States.




                                             Commissioners
                                        Deanna Tanner Okun, Chairman
                                        Irving A. Williamson, Vice Chairman
                                        Charlotte R. Lane
                                        Daniel R. Pearson
                                        Shara L. Aranoff
                                        Dean A. Pinkert
  OFFICE OF INSPECTOR GENERAL




             UNITED STATES INTERNATIONAL TRADE COMMISSION

                                       WASHINGTON, DC 20436

November 10, 2010                                                                            OIG-HH-032

Chairman Okun:

This memorandum transmits the Independent Auditor’s Report on Compliance with Laws and Regulations
(OIG-AR-11-04) associated with the audit of the Commission’s financial statements for fiscal year 2010.
We contracted with the independent certified public accounting firm, Castro & Company LLC, to conduct
this audit. The contract required that the audit be conducted in accordance with U.S. generally accepted
government auditing standards. These standards require a report on Compliance with Laws and
Regulations.

My office has policies and procedures which assure that work performed by non-Federal auditors complies
with U.S. generally accepted government auditing standards. These procedures follow the guidelines
provided in the GAO/PCIE Financial Audit Manual (FAM 650).

In connection with this contract, my office reviewed Castro & Company’s report and related documentation
and made inquiries of its representatives. Our involvement in the audit process consisted of monitoring
audit activities; reviewing auditor independence and qualifications; attending meetings; participating in
discussions; and reviewing audit planning, working papers, conclusions, and results. Our review disclosed
no instances where Castro & Company did not comply, in all material respects, with U.S. generally
accepted government auditing standards. However, our review cannot be construed as an audit in
accordance with the U.S. generally accepted government auditing standards. It was not intended to enable
us to express, and we do not express, any opinion on the Commission’s compliance with laws and
regulations. Castro & Company is solely responsible for the audit report dated November 8, 2010 and the
conclusions expressed in the report.

Based on the conclusion reached in Castro & Company’s report, I recommend that:
   1. The Commission seek advice from the General Counsel on how to make the transit program fully
       compliant with applicable laws and regulations; and
   2. The Commission bring the transit program into compliance.

In the next 30 days, please provide me with your management decisions describing the specific actions that
you will take to implement these two recommendations.

Sincerely,




Philip M. Heneghan
Inspector General
                                                                                   2121 Eisenhower Ave.
                                                                                   Suite 606
                                                                                   Alexandria, VA 22314
                                                                                   Phone: 703.229.4440
                                                                                   Fax: 703.859.7603
                                                                                   www.castroco.com
                                Independent Auditor’s Report on
                              Compliance with Laws and Regulations


Inspector General
U.S. International Trade Commission

We have audited the financial statements of the U.S. International Trade Commission (ITC) as of
and for the year ended September 30, 2010, and have issued our report thereon dated November 8,
2010. The report states except for undelivered orders and other related accounts discussed therein,
we expressed an opinion on the balance sheet as of September 30, 2010, and the related statements
of net cost, changes in net position, and budgetary resources for the fiscal year then ended.

The management of ITC is responsible for complying with laws and regulations applicable to ITC.
We performed tests of its compliance with certain provisions of laws and regulations,
noncompliance with which could have a direct and material effect on the determination of financial
statement amounts, and certain other laws and regulations specified in the Office of Management
and Budget (OMB) Bulletin No. 07-04, Audit Requirements for Federal Financial Statements, as
amended, including the requirements referred to in the Federal Managers’ Financial Integrity Act of
1982 (FMFIA). We limited our tests of compliance to these provisions, and we did not test
compliance with all laws and regulations applicable to ITC.

The results of our tests of compliance with applicable laws and regulations, and government-wide
policies described in the preceding paragraph disclosed one instance of reportable noncompliance
that is required to be reported under Government Auditing Standards or OMB guidance and is
described in the following paragraphs.

Title 5 United States Code (U.S.C.) Section 7905, Programs to encourage commuting by means
other than single-occupancy motor vehicles, “allows a program to involve such options as Transit
passes; Furnishing space, facilities, or services to bicyclists; and any non-monetary [incentive] which
the agency head may otherwise offer under any other provision of law or other authority.”
Furthermore, Executive Order 13150 requires, “by no later than October 1, 2000, Federal agencies
shall implement a transportation fringe benefit program that offers qualified Federal employees the
option to exclude from taxable wages and compensation, consistent with section 132 of title 26,
United States Code, employee commuting costs incurred through the use of mass transportation and
vanpools, not to exceed the maximum level allowed by law.”

The Government Accountability Office’s (GAO) Principles of Federal Appropriations Law, Chapter
4, Section J (pages 271–274) states, “agencies must generally obtain parking accommodations
through the General Services Administration (GSA) under the Federal Property and Administrative
Services Act of 1949, as amended (Ch. 288, 63 Stat. 377 (June 30, 1949)), unless they have
independent statutory authority or a delegation from GSA.”

ITC does not have independent statutory or delegated authority to procure space and facilities to
provide for employee parking. As such, ITC’s program provides benefits that do not fully comply
with the requirements of GAO Principles of Federal Appropriations Law. In addition, ITC’s
Independent Auditor’s Report on Compliance with Laws and Regulations
Page 2


program is also inconsistent with the requirements of 5 U.S.C. Section 7905, Programs to encourage
commuting by means other than single-occupancy motor vehicles, and Executive Order 13150,
Federal Workforce Transportation.

Providing an opinion on compliance with certain provisions of laws and regulations, and
government-wide policies was not an objective of our audit, and accordingly, we do not express such
an opinion.

This report is intended solely for the information and use of management and the Office of Inspector
General of ITC, OMB, GAO, and Congress, and is not intended to be and should not be used by
anyone other than these specified parties.




November 8, 2010
Alexandria, VA
Chairman




  UNITED STATES INTERNATIONAL TRADE COMMISSION

                               WASHINGTON, DC 20436



                                 November 8, 2010

Thomas Castro, Partner
Castro and Company, LLC
2121 Eisenhower Avenue, Suite 606
Alexandria, VA 22314

Dear Mr. Castro:

The draft Report on Compliance with Laws and Regulations identified one instance
of non-compliance related to the Commission’s transit subsidy and parking program.
I have asked our General Counsel to analyze the laws surrounding the program and
provide recommendations for how to bring the Commission into compliance.

Thank you for bringing this instance of non-compliance to our attention; we will
resolve it as quickly as possible.

                                            Sincerely,



                                            Deanna Tanner Okun

cc:   Philip M. Heneghan
      Inspector General
“Thacher’s Calculating Instrument” developed by Edwin Thacher in the late 1870’s. It is a cylindrical, rotating slide
rule able to quickly perform complex mathematical calculations involving roots and powers quickly. The instrument
was used by architects, engineers, and actuaries as a measuring device.
